No. _____
In the

Supreme Court of the United States
________________

POLK COUNTY,
v.
J.K.J. and M.J.J.,
________________

Petitioner,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
________________
PETITION FOR WRIT OF CERTIORARI
________________
PAUL D. CRANLEY
HUSCH BLACKWELL LLP
33 East Main Street
Madison, WI 53703

ERIN E. MURPHY
Counsel of Record
LAUREN N. BEEBE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
erin.murphy@kirkland.com

ANDREW A. JONES
HANSEN REYNOLDS LLC
301 N. Broadway
Suite 400
Milwaukee, WI 53202
Counsel for Petitioner
September 29, 2020

QUESTION PRESENTED
Under Monell v. Department of Social Services,
436 U.S. 658 (1978), a municipality may be held liable
under 42 U.S.C. §1983 only for its own
unconstitutional acts. “In limited circumstances,”
such as when a municipality is on notice of a pattern
or practice of unconstitutional acts, it may be held
liable on the theory that the “decision not to train
certain employees about their legal duty to avoid
violating citizens’ rights” is tantamount to an official
policy of condoning constitutional violations. Connick
v. Thompson, 563 U.S. 51, 61 (2011). This Court has
also left open the possibility that in rare cases a
municipality could be held liable for a failure to train
even absent any such pattern or practice, but it has
never sustained a so-called “single-incident” claim.
In the divided decision below, the en banc Seventh
Circuit concluded that a county could be held liable for
a correctional officer’s repeated and covert sexual
assault of two inmates. The majority agreed that the
county expressly prohibited sexual contact between
officers and inmates, that there was no pattern or
practice of violations of that policy, and that the officer
had been trained and understood that his conduct
violated county policy and criminal law. Nonetheless,
it concluded that the county could be held liable on the
theory that the risk that an officer would violate its
clear prohibition on sexual assault was so “obvious”
that its failure to do more to address it constituted a
de facto policy of condoning sexual assault.
The question presented is:
Whether the “single-incident” theory of Monell
liability may be used to hold a municipality liable

ii
under §1983 on the theory that its failure to do more
to prevent an employee from committing crimes that
he had been trained and knew were expressly
forbidden by municipal policy (and the law) was
tantamount to embracing a policy of condoning
constitutional violations.

iii
PARTIES TO THE PROCEEDING
Polk County is petitioner here and was defendantappellant below.
J.K.J. and M.J.J. are respondents here and were
plaintiffs-appellees below.
Darryl L. Christensen was a defendant-appellant
below, but is no longer a party to these proceedings.

iv
STATEMENT OF RELATED PROCEEDINGS
J.K.J. v. Polk County, Nos. 18-1498, 18-1499, 182170, & 18-2177 (7th Cir.) (opinion issued and
judgment entered June 26, 2019; rehearing en banc
granted, opinion vacated Sept. 16, 2019; opinion
issued and judgment entered May 15, 2020; mandate
issued June 15, 2020).
J.K.J. v. Polk County, Nos. 15-cv-428-wmc & 15cv-433-wmc (W.D. Wis.) (opinion and order on motions
for summary judgment in part signed Nov. 28, 2016;
jury verdict on liability returned Feb. 2, 2017; jury
verdict on damages returned Feb. 3, 2017; opinion and
order signed Feb. 5, 2018; amended judgment entered
Feb. 6, 2018; opinion and order signed May 16, 2018;
second amended judgment entered May 18, 2018).
There are no additional proceedings in any court
that are directly related to this case.

v
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING .......................... iii
STATEMENT OF RELATED PROCEEDINGS ....... iv
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 2
JURISDICTION ......................................................... 3
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED...................................... 3
STATEMENT OF THE CASE ................................... 4
A. Monell Liability ............................................ 4
B. Factual Background and District Court
Proceedings ................................................... 6
C. Seventh Circuit Proceedings ...................... 11
REASONS FOR GRANTING THE PETITION....... 16
I.

The Seventh Circuit’s Boundless Expansion
Of Monell Liability Squarely Conflicts With
Decisions Of This Court And Other Courts Of
Appeals............................................................... 19
A. Monell Claims Must Satisfy Demanding
Fault and Causation Standards ................ 19
B. The Decision Below Is a Stark Departure
from Decisions of this Court and Others ... 22
C. The Decision Below Is Wrong .................... 26

II. The Question Presented Is Exceptionally
Important ........................................................... 31
CONCLUSION ......................................................... 35

vi
APPENDIX
Appendix A
Opinion, United States Court of Appeals for
the Seventh Circuit, J.K.J. v. Polk Cty.,
Nos. 18-1498, 18-1499, 18-2170, 18-2177
(May 15, 2020) ............................................. App-1
Appendix B
Opinion, United States Court of Appeals for
the Seventh Circuit, J.K.J. v. Polk Cty.,
Nos. 18-1498, 18-1499, 18-2170, 18-2177
(June 26, 2019) ........................................ App-111
Appendix C
Order, United States Court of Appeals for the
Seventh Circuit, J.K.J. v. Polk Cty.,
Nos. 18-1498, 18-1499, 18-2170, 18-2177
(Sept. 16, 2019) ........................................ App-174
Appendix D
Opinion and Order, United States District
Court for the Western District of Wisconsin,
J.K.J. v. Polk Cty., Nos. 15-cv-428-wmc,
15-cv-433-wmc (Feb. 5, 2018) .................. App-175
Appendix E
Relevant Statutes .................................... App-199
Wis. Stat. § 940.225 .......................... App-199

vii
TABLE OF AUTHORITIES
Cases
Andrews v. Fowler,
98 F.3d 1069 (8th Cir. 1996)............................ 24, 28
Barney v. Pulsipher,
143 F.3d 1299 (10th Cir. 1998).................. 17, 23, 28
Bd. of Cty. Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397 (1997)........................................ passim
Cash v. Cty. of Erie,
654 F.3d 324 (2d Cir. 2011) ................................... 30
City of Canton v. Harris,
489 U.S. 378 (1989)........................................ passim
City of St. Louis v. Praprotnik,
485 U.S. 112 (1988)................................................ 20
Connick v. Thompson,
563 U.S. 51 (2011).......................................... passim
Estate of Jones by Jones
v. City of Martinsburg,
961 F.3d 661 (4th Cir. 2020).................................. 25
Flores v. Cty. of Los Angeles,
758 F.3d 1154 (9th Cir. 2014)................................ 23
Floyd v. Waiters,
133 F.3d 786 (11th Cir. 1998)................................ 24
Los Angeles Cty. v. Humphries,
562 U.S. 29 (2010).................................................. 20
Monell v. Dep’t of Soc. Servs.,
436 U.S. 658 (1978)............................................ 4, 20
Oklahoma City v. Tuttle,
471 U.S. 808 (1985)................................................ 20

viii
Parrish v. Ball,
594 F.3d 993 (8th Cir. 2010)............................ 24, 33
Pembaur v. City of Cincinnati,
475 U.S. 469 (1986)................................................ 20
Peña v. City of Rio Grande City,
879 F.3d 613 (5th Cir. 2018).................................. 25
S.J. v. Kansas City Mo. Pub. Sch. Dist.,
294 F.3d 1025 (8th Cir. 2002)................................ 24
Schneider
v. City of Grand Junction Police Dep’t,
717 F.3d 760 (10th Cir. 2013).......................... 25, 33
Sewell v. Town of Lake Hamilton,
117 F.3d 488 (11th Cir. 1997).......................... 24, 33
Waller v. City & Cty. of Denver,
932 F.3d 1277 (10th Cir. 2019).............................. 23
Constitutional Provisions
U.S. Const. amend. VIII ............................................. 3
U.S. Const. amend. XIV, §1........................................ 3
Statutes
34 U.S.C. §§30301-09 ............................................... 10
34 U.S.C. §30307(a)(1) .............................................. 10
42 U.S.C. §1983 ................................................ passim
Wis. Stat. §893.80(4) ............................................ 7, 11
Wis. Stat. §940.225(2)(h) ............................................ 8

PETITION FOR WRIT OF CERTIORARI
Over the course of three years, correctional officer
Darryl Christensen repeatedly sexually assaulted two
female inmates in the Polk County Jail. He did so
knowing full well that his conduct was both criminal
and a clear violation of jail policy. Of course, it should
go without saying that sexual assault is a crime. But
when it came to sexual contact with inmates, Polk
County left nothing unsaid.
It unambiguously
prohibited any sexual contact between officers and
inmates, period. Christensen violated that command
(and the law) not because he failed to understand it,
or because he did not think the County really meant
it, but because he simply did not care that what he was
doing was obviously and egregiously criminal.
Christensen’s actions were horrific, and he is now
serving 30 years in prison for his crimes. And in this
§1983 case, a jury awarded each of his victims $5.75
million in damages for his Eighth Amendment
violations, a judgment that was unanimously affirmed
by the en banc Seventh Circuit in the decision below,
and that Polk County has never sought to disturb. But
a majority of the sharply divided en banc court also
affirmed a §1983 judgment against the County itself,
on the theory that it was so obvious that one of its
officers would violate the County’s unambiguous
prohibitions on sexual assault that the County
violated the Eighth Amendment by failing to adopt
various non-binding federal standards aimed at
improving efforts to prevent sexual abuse in prisons.
That conclusion rests on a boundless theory of
municipal liability under §1983 that is squarely
foreclosed by this Court’s precedents. It also conflicts

2
with decisions from nearly a half a dozen other circuits
rejecting comparable efforts to hold municipalities
liable for the flagrantly criminal conduct of employees
who chose to violate municipal policy rather than
respect it. As this Court has been at pains to make
clear ever since Monell itself, §1983 does not subject
municipalities to respondeat superior or even
negligence liability for the constitutional violations
their employees commit. It subjects municipalities to
liability only for their own unconstitutional acts.
Thus, a municipality violates the Constitution either
by embracing policies that violate the Constitution, or
by consciously declining to teach its employees what
the Constitution requires of them. It does not violate
the Constitution by unknowingly failing to stop the
rare employee who simply does not care what the law
commands. By eviscerating the careful constraints
that Monell and its progeny impose on municipal
liability under §1983, the decision below subjects
municipalities to exactly the type of de facto
respondent superior liability that this Court has
rejected at every turn. The Court should grant
certiorari to restore §1983 to its proper limits and to
restore the federal-state balance that those limits so
carefully preserve.
OPINIONS BELOW
The Seventh Circuit’s opinion is reported at 960
F.3d 367 and reproduced at App.1-110. The Seventh
Circuit’s initial panel opinion, which was vacated and
superseded on rehearing en banc, is reported at 928
F.3d 576 and reproduced at App.111-73, and the order
granting the petition for rehearing en banc and
vacating that panel opinion is reproduced at App.174.

3
The district court’s opinion on post-trial motions is
unreported but available at 2018 WL 708390 and
reproduced at App.175-98.
JURISDICTION
The Seventh Circuit issued its opinion on May 15,
2020. On March 19, 2020, this Court extended the
deadline to file any petition for a writ of certiorari due
on or after that date to 150 days. This Court has
jurisdiction under 28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Eighth Amendment provides: “Excessive bail
shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.” U.S. Const.
amend. VIII.
The Due Process Clause of the Fourteenth
Amendment provides: “nor shall any State deprive
any person of life, liberty, or property, without due
process of law.” U.S. Const. amend. XIV, §1.
42 U.S.C. §1983 provides, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State …, subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress[.]
Section 940.225(2)(h) of the Wisconsin Statutes
criminalizes, as second degree sexual assault and a

4
Class C felony, “sexual contact or sexual intercourse
with an individual who is confined in a correctional
institution if the actor is a correctional staff member.”
Section 940.225 is reproduced in full at App.199-205.
STATEMENT OF THE CASE
A. Monell Liability
In Monell v. Department of Social Services, 436
U.S. 658 (1978), this Court held that a local
government is a “person” that can be sued for
constitutional violations under 42 U.S.C. §1983. But
the Court went on to hold—and has reiterated in every
one of its Monell decisions since—that “a municipality
cannot be held liable under §1983 on a respondeat
superior theory.” Id. at 691; see also, e.g., Connick v.
Thompson, 563 U.S. 51, 60-62 (2011). Instead, “under
§1983, local governments are responsible only for
‘their own illegal acts.’” Connick, 563 U.S. at 60.
Accordingly, “[p]laintiffs who seek to impose liability
on local governments under §1983 must prove that
action pursuant to official municipal policy caused
their injury.” Id.
Typically, that requires identifying some official
“decision[] of a government’s lawmakers,” “act[] of its
policymaking officials,” or “practice[] so persistent and
widespread as to practically have the force of law.” Id.
at 61. “In limited circumstances,” however, a §1983
plaintiff may establish liability based on “a local
government’s decision not to train certain employees
about their legal duty to avoid violating citizens’
rights.” Id. (emphasis added). That said, this Court
has cautioned that “[a] municipality’s culpability for a
deprivation of rights is at its most tenuous where a
claim turns on a failure to train,” for an alleged

5
“‘policy’ of ‘inadequate training’” is inherently
“nebulous, and a good deal further removed from the
constitutional violation, than” an identifiable policy or
custom. Id. Accordingly, when a plaintiff proceeds on
a failure-to-train theory, the failure “must amount to
‘deliberate indifference to the rights of persons with
whom the [untrained employees] come into contact.’”
Id. (alteration in original). “Only then can such a
shortcoming be properly thought of as a city ‘policy or
custom’ that is actionable under §1983.” Id.
“‘[D]eliberate indifference’ is a stringent standard
of fault, requiring proof that a municipal actor
disregarded a known or obvious consequence of his
action.” Id. Thus, a “pattern of similar constitutional
violations by untrained employees is ordinarily
necessary to demonstrate deliberate indifference for
purposes of failure to train.” Id. at 62. But this Court
has “left open the possibility that, ‘in a narrow range
of circumstances,’ a pattern of similar violations might
not be necessary to show deliberate indifference.” Id.
at 63. To illustrate, the Court offered a hypothetical:
For example, city policymakers know to a
moral certainty that their police officers will
be required to arrest fleeing felons. The city
has armed its officers with firearms, in part
to allow them to accomplish this task. Thus,
the need to train officers in the constitutional
limitations on the use of deadly force … can
be said to be “so obvious,” that failure to do so
could properly be characterized as “deliberate
indifference” to constitutional rights.
City of Canton v. Harris, 489 U.S. 378, 390 n.10 (1989).

6
While the Court has continued to decline to
foreclose the possibility of such a “single-incident” case
since it first posited the theory in Canton, it has yet to
identify a viable one. In fact, the Court has rejected
each single-incident claim it has confronted. See, e.g.,
Connick, 563 U.S. at 63-70; Bd. of Cty. Comm’rs of
Bryan Cty. v. Brown, 520 U.S. 397, 407-09 (1997). In
doing so, the Court has made clear that the singleincident theory is not a path to holding municipalities
liable for failing to do more to prevent employees from
violating known constitutional limits. Instead, it is a
theory reserved for the “rare” instance when a
municipality fails to equip its employees with any
“knowledge at all of the constitutional limits” that
govern their conduct in situations that they are all but
certain to encounter, even though “there is no reason
to assume” that they possess that knowledge on their
own. Connick, 563 U.S. at 64, 67. Only then can
failure to provide that obviously necessarily training
be deemed tantamount to embracing an official policy
of condoning constitutional violations.
B. Factual Background and District Court
Proceedings
The Polk County Jail is a local correctional facility
in northwest Wisconsin that houses both male and
female inmates and employs about 27 correctional
officers. App.3. In 2014, Polk County received a call
from an investigator in a neighboring county who
reported an allegation that one of Polk County’s
correctional officers, Darryl Christensen, had engaged
in sexual contact with an inmate. App.4. The County
immediately commenced its own investigation and
confronted Christensen, who resigned on the spot.

7
App.4. The County continued its investigation and
ultimately discovered that, unbeknownst to anyone at
the jail, Christensen had repeatedly and covertly
sexually assaulted two female inmates, respondents
J.K.J. and M.J.J., over a three-year period. App.3-4.
Christensen was prosecuted for his crimes and,
after pleading guilty, is now serving a 30-year
sentence in prison. App.4. Respondents brought
§1983 actions against Christensen, alleging that he
violated their Eighth Amendment rights. App.2-3. A
jury awarded each of them $5.75 million in
compensatory and punitive damages on those claims,
a judgment that was unanimously affirmed by both a
three-judge panel and the en banc Seventh Circuit,
and that no one seeks to disturb here.
In addition to their claims against Christensen,
respondents sued Polk County, seeking to hold it liable
under both state and federal law. On the state-law
front, respondents alleged that the County engaged in
negligent supervision and training. But these claims
faced an uphill battle because Wisconsin immunizes
its counties from negligence claims when (among
other things) the alleged act or failure to act involved
the exercise of discretion. App.176-81; Wis. Stat.
§893.80(4). On the federal-law front, respondents
brought §1983 claims, alleging that the County’s
policies and training with respect to sexual assault of
inmates were so deficient as to constitute deliberate
indifference to their Eighth Amendment rights.
App.2-3. But there, too, their claims faced significant
obstacles under Monell and its progeny.
First, there is no dispute that Polk County
expressly and unambiguously prohibits sexual contact

8
between officers and inmates. Of course, it requires
no specialized training to know that sexual assault is
a crime. But Polk County made crystal clear to its
officers that sexual contact of any kind with inmates—
consensual or otherwise—was not only strictly
forbidden, but a felony. See Wis. Stat. §940.225(2)(h)
(categorizing sexual contact and sexual intercourse by
a correctional staff member with an inmate as a Class
C felony). That is memorialized in Policy C-202 of the
jail’s Policy and Procedures Manual, which flatly
prohibits any “intimate social or physical relationship
with a prisoner,” informs officers that sexual contact
with an inmate is a crime under Wisconsin law, and
instructs that any officer who suspects such conduct
has a duty to report it. App.8-9, 40.
Policy C-202 is reinforced by Policy I-100, which
forbids any mistreatment or harassment of inmates
and instructs that it is never acceptable for “any
inmate [to] be the object of verbal, physical, emotional,
psychological, or sexual harassment by facility staff.”
App.40. Policy I-100 also clearly states that “[a]ny
officer engaged in such actions is subject to
disciplinary charges and/or termination.” App.40.
Every new officer at the Polk County Jail is trained on
all of the jail’s policies, including those prohibiting
sexual contact between guards and inmates, both by
way of an eight-to-ten-week field training program
and thereafter by a daily training program. App.4748. Moreover, every new officer must complete a
separate 160-hour state certification program,
pursuant to standards set by the Wisconsin
Department of Justice, that also includes training on
the prohibition against sexual contact with inmates.
App.47-48. Inmates are likewise notified in their

9
inmate handbook that sexual contact between guards
and inmates is strictly prohibited.
App.9.
Accordingly, there was neither any dispute that Polk
County has a policy on sexual abuse on which it trains
its officers, nor any dispute about what the policy is:
Sexual contact with inmates is strictly forbidden, a
firing offense, and a crime.
The second difficulty respondents faced with their
§1983 claims against Polk County was that no pattern
or practice of past conduct could have put the County
on notice of any deficiency in its unambiguous
prohibitions on sexual abuse, for there was no
evidence that anything like what Christensen did had
ever before happened at the jail. There was evidence
that one officer had been reprimanded for having “an
inappropriate relationship with a female inmate.”
App.5. In particular, he was accused of having
“touched [her] on her waist and rear end,” made
inappropriate sexual comments about her and other
inmates, and “focused video cameras on the female
housing pod for an inordinate amount of time” while
inmates were showering. App.5. There was also
evidence that some officers had made several
unspecified sexually inappropriate comments about
inmates over a 12-year period. App.5-8. But there
was no evidence that any officer had ever before
engaged in the criminal act of sexually assaulting an
inmate.
Accordingly, when the County moved before trial
to exclude any evidence or argument trying to claim a
pattern or practice of constitutional violations, the
district court agreed to exclude “pattern or practice” as
a “basis of liability from the jury instructions.”

10
App.181-82. Respondents thus were left relying
exclusively
on
the
“single-incident”
theory
hypothesized in Canton—i.e., that “in light of the
duties assigned to specific officers or employees the
need for more or different training is so obvious, and
the inadequacy so likely to result in the violation of
constitutional rights, that the [municipality] can
reasonably be said to have been deliberately
indifferent to the need.” Canton, 489 U.S. at 390. But
that effort was frustrated by Christensen’s testimony,
for Christensen readily admitted that he had been
trained and understood at all times that his conduct
was both criminal and a violation of jail policy, and
that he did not require any additional training to
understand that what he was doing was wrong.
App.14; see also App.47, 105 (Brennan, J., dissenting
in part). Moreover, respondents’ own expert “conceded
at trial that no proof exists that better or more
training could have dissuaded Christensen from his
predatory and assaultive behavior.” App.105.
Respondents thus focused principally on trying to
prove something else—namely, that the County could
have put in place policies that might have helped
someone else detect Christensen’s criminal conduct
sooner. In particular, respondents placed heavy
emphasis on the Prison Rape Elimination Act of 2003
(“PREA”), 34 U.S.C. §§30301-09, a federal statute
pursuant to which the Attorney General has
established “national standards for the detection,
prevention, reduction, and punishment of prison
rape,” id. §30307(a)(1). Respondents agreed that Polk
County is not required to follow these federal
standards, and they did not dispute that Polk County
was at all times in compliance with all the state-law

11
mandates it must follow.
App.31; App.54-55
(Brennan, J., dissenting in part). But while Polk
County had implemented some of PREA’s standards,
their expert opined that the County had “inadequately
addressed [PREA’s] prevention and detection”
objectives and that it “could improve its policies” by
implementing more of PREA’s standards. App.11-12.
The jury returned verdicts for respondents on all
claims and awarded each respondent $2 million in
compensatory damages against both Christensen and
the County, as well as $3.75 million in punitive
damages against Christensen alone. App.12-13. The
district court granted the County’s post-trial motion
for judgment on the state-law negligence claim,
finding the County immune because respondents’
“negligence claims turn on discretionary duties, for
which the County is immune” under state law.
App.176-81; Wis. Stat. §893.80(4). But the court
affirmed the judgment in all other respects. App.197.
C. Seventh Circuit Proceedings
1. Both Christensen and the County appealed to
the Seventh Circuit, and a panel unanimously
affirmed the verdict against Christensen but divided
over the verdict against the County. In an opinion
authored by Judge Brennan, the majority overturned
that verdict, concluding that respondents failed to
prove the “connection between the assaults and any
county policy” that is required under Monell’s
“demanding standards.” App.112. In particular, the
majority found no legally sufficient basis on which a
jury could find “that the jail’s express policies were
obviously deficient, that the county was or should have
been aware that jail policies were inadequate, that

12
assaults were imminent, or that PREA sets the norm”
that all correctional institutions must follow.
App.130. Judge Scudder dissented from that aspect of
the panel’s holding. App.162-71.
2. Respondents petitioned for rehearing en banc,
which the court granted. App.174. On rehearing, a
divided Seventh Circuit flipped the panel composition.
Now writing for the majority, Judge Scudder affirmed
the verdict against the County.
The majority
recognized that “a failure to act amounts to municipal
action for Monell purposes only if the County has
notice that its program will cause constitutional
violations.” App.21. It also recognized that “[i]n many
Monell cases notice requires proof of a prior pattern of
similar constitutional violations,” and it agreed that
“[t]his case presents no such pattern.” App.22. But
the majority found an “alternative path to Monell
liability … from” the single-incident “door the
Supreme Court opened in” Canton. App.22.
The majority first focused on purported “gaps” in
the County’s policies. App.19. Although the majority
acknowledged that “Polk County’s written policies
categorically prohibited sexual contact with inmates
and required responses to alleged violations,” it
faulted the County for failing to adopt all the federal
standards established by PREA, and it maintained
that “the jury could have found that Polk County’s
sexual abuse prevention program was entirely
lacking” because “[t]he policy stated nothing but the
obvious—do not sexually abuse inmates.” App.19-21.
According to the majority, the jury could have “tallied”
these various “gaps” in the County’s prevention and
detection policies “as part of finding the conscious,

13
deliberate municipal inaction upon which to rest
Monell liability.” App.21.
The majority next focused on whether the County
was on notice that these purported gaps were likely to
cause an officer to sexually assault an inmate. It
acknowledged that there was no “prior pattern of
similar constitutional violations.” App.22. But it
concluded that no such pattern was necessary because
“common sense” told the jury that it “was as obvious
as obvious could be” that “male guards would sexually
assault female inmates” even if they were instructed
that doing so is both prohibited and criminal. App.2526. Pointing to evidence of unspecified “sexual
comments male guards made about female inmates,”
the majority further posited that the “jury could have
viewed the jail’s denigrating culture as confirming the
undeniable risk that a guard would grow too
comfortable, lose his better angels, and step over the
clear line marked in Polk County’s written policies.”
App.26-27.
Notwithstanding its express concession that there
was no “prior pattern of similar constitutional
violations,” App.22, the majority also claimed that the
jury could have found “it ‘highly predictable,’ if not
certain, that a male guard would sexually assault a
female inmate if the County did not act” after it
learned of and reprimanded the officer who was
accused of engaging in markedly different “sexual
misconduct against [another] inmate,” App.27-28.
According to the majority, “[t]he jury could have
viewed the[se] allegations … as exposing as false any
belief the County may have had that its barebones

14
written policy and training were enough to protect its
female inmates from sexual abuse.” App.29.
“Viewing this evidence all together,” the majority
concluded, “the jury could have found that Polk
County did little to reinforce the dignity and respect
owed female (and indeed all) inmates and instead
seemed to enable a culture that condoned the sexual
objectification of the women in its custody.” App.31.
In the majority’s view, “the jury was entitled to
conclude that if Polk County had taken action in
response to the glaring risk that its female inmates’
health and safety were in danger, J.K.J. and M.J.J.’s
assaults would have stopped sooner, or never
happened at all.” App.33-34.
Judge Hamilton authored a concurring opinion in
which he acknowledged that respondents’ Monell
claims were not based on “whether guards knew right
from wrong or knew that it was a crime to have sex
with inmates,” but rather were based on “the county’s
failure to monitor its guards and its failure to provide
effective channels for complaints so as to discourage
such abuse.” App.37. He analogized to a bank that
“train[s] its tellers that they should not steal and that
theft is a crime,” but fails to conduct regular audits.
App.37. In his view, such “reckless” disregard of a
known risk that employees will “g[i]ve in to the
temptation” to break the law suffices to constitute
“deliberate[] indifferen[ce].” App.37.
3. Judge Easterbrook dissented. As he explained,
a failure-to-train Monell claim must be based on the
failure to train employees to comprehend potentially
thorny policies, like how much force is “excessive.”
Here, by contrast, “anyone can understand the rule

15
against intimate physical relations between guards
and inmates,” and “[t]he Jail made sure that every
guard knew about this rule.” App.40. He accordingly
concluded that “[t]he problem is not a want of
comprehension (as in Canton’s hypothetical) but a
want of compliance.” App.40. And in his view,
“subordinate employees’ failure to comply with a valid
policy is not a ground of liability against a
municipality.” App.40. “The question under Monell,”
he explained, “is not whether the County could have
done better at inducing compliance with its rules,” for
“[w]ith the benefit of hindsight, that’s always
possible.” App.43. Judge Easterbrook rejected the
majority’s contrary approach as “just vicarious
liability by another name.” App.41.
Judge Brennan also authored a dissent, which
Judges Bauer and Sykes joined. He detailed at length
all the ways in which in which the majority’s “decision
stands alone, unaided by precedent” from this Court
or any other. App.44 (Brennan, J., dissenting in part).
Not only has this Court “never ruled that a Monell
claim based on a municipality’s failure to act is viable
in the absence of a pattern,” but no other “federal
appellate court has extended the single-incident
exception to the sexual assault context,” “applied that
exception when the employee’s compliance with the
municipality’s policy and training would have
prevented the injuries,” or “held that specialized
training is required for an employee to know that rape
is wrong.” App.44-45. He also walked through each
and every way in which this case flunks “the stringent
fault and causation requirements set by the Supreme
Court to prove §1983 liability,” App.44, and explained

16
in detail how the majority’s characterization of the
facts was belied by the record, App.45-55.
Judge Brennan closed by lamenting that the
majority’s “decision departs from Supreme Court
precedents, imports a negligence standard into the
law of deliberate indifference, permits federal
encroachment into an area of traditional state
authority, and splits with other federal circuits.”
App.110. In his view, “[o]n these facts and under the
controlling law, the employee, not the employer,
should be held responsible for these plaintiffs’
injuries.” App.110.
REASONS FOR GRANTING THE PETITION
The decision below holds that a county may be
held liable under §1983 for failing to prevent a rogue
employee from knowingly violating unambiguous
county training and policy and state criminal law, on
the theory that it should have been “obvious” to the
county that one of its correctional officers would
sexually assault an inmate unless the county
embraced a set of non-binding federal standards on
how to better prevent sexual abuse in prisons. That
radical expansion of the “single-incident” theory of
Monell liability is flatly contrary to decades of this
Court’s precedents, as well as decisions from nearly
half a dozen other circuits faithfully following them.
As this Court has made clear, “[a] municipality’s
culpability for a deprivation of rights is at its most
tenuous where a claim turns on a failure to train,” for
a purported “‘policy’ of ‘inadequate training’” is
inherently “nebulous, and a good deal further removed
from the constitutional violation, than” an identifiable
policy or custom. Connick, 563 U.S. at 61. And a

17
failure-to-train claim is gossamer-thin when it is
premised not on a pattern or practice of comparable
constitutional violations putting the municipality on
notice of a deficiency in its policies or training, but on
the so-called “single-incident” theory. Accordingly,
while this Court has declined “to foreclose the
possibility, however rare, that the unconstitutional
consequences of failing to equip employees with
critical specialized training could be so patently
obvious that a city could be liable under §1983 without
proof of a pre-existing pattern of violations,” id., it has
pointedly rejected every effort to convert the singleincident theory into an exception that swallows the
pattern-or-practice rule. Indeed, it has rejected every
single-incident claim, period.
In keeping with this Court’s teachings, lower
courts have repeatedly rejected efforts to expand the
single-incident theory beyond the rare instance in
which a municipality wholly fails to equip employees
with specialized training that it is obvious their job
requires. And every circuit to confront the question
has squarely rejected efforts to use that theory to hold
a municipality liable for an employee’s flagrantly and
undeniably criminal acts, like sexually assaulting
someone in their custody or care. Courts have done so
even when a municipality did not train its employees
that such conduct was prohibited, for as one court
aptly put it, “[s]pecific or extensive training hardly
seems necessary for a jailer to know that sexually
assaulting inmates is inappropriate behavior.”
Barney v. Pulsipher, 143 F.3d 1299, 1308 (10th Cir.
1998). And when such conduct does violate a clear
municipal policy, courts have been equally
unreceptive to efforts to use the single-incident theory

18
to fault a municipality for the unfortunate reality that
even the threat of a decades-long prison sentence will
not stop some people from violating the law. As all of
these courts have recognized, the single-incident
theory is a complete misfit for negligence-style cases
in which the claim is not that the municipality failed
to teach its employees what the law required of them,
but that the municipality should have done more to
prevent them from doing what they knew the law
prohibited.
The decision below breaks sharply from that
consensus. The majority conceded (as it had to) that
Polk County flatly prohibited sexual contact with
inmates and trained all officers that violation of that
policy was not just a firing offense, but a felony. The
majority also conceded (as it had to) that there was no
pattern or practice of past violations of that
unambiguous policy. It further conceded (as it had to)
that Christensen knew that his conduct was both
prohibited and criminal at all times. And respondents’
own expert conceded that there was no evidence that
the County could have done anything that would have
dissuaded Christensen from perpetrating his heinous
crimes. Yet the majority nonetheless declared it so
“obvious” that the County needed to do something
more that its failure to do so was tantamount to an
official policy of condoning sexual assault of inmates.
That decision is irreconcilable with this Court’s
precedents and with decisions from at least five other
circuits. As every other circuit to confront a case like
this has recognized, the single-incident theory is not a
mechanism for imposing liability on the theory that a
municipality “could have done more” to prevent a

19
constitutional violation. If it were, then it not only
would swallow the pattern-or-practice rule whole, but
would convert §1983 into the very mechanism for de
facto respondeat superior liability that this Court’s
precedents confirm it is not. Worse still, it would give
federal courts free rein to micromanage state and
municipal policy at every level. This is a case in point:
The principal deficiency the majority identified in the
County’s policies and training was its failure to adopt
standards established under a non-binding federal
statute that Wisconsin has chosen not to require its
local correctional facilities to implement. The decision
thus effectively constitutionalizes federal policies that
the County is not even statutorily bound to follow.
In short, the decision below runs roughshod over
this Court’s precedents and the careful federal-state
balance that they have striven to preserve. Left
standing, it will serve as an invitation to impose
liability where Monell does not permit it. The Court
should grant certiorari and reject the Seventh
Circuit’s effort to convert §1983 into a tool for
subjecting municipalities to the very de facto
respondeat superior form of liability that is squarely
foreclosed by decades of this Court’s precedent.
I.

The Seventh Circuit’s Boundless Expansion
Of Monell Liability Squarely Conflicts With
Decisions Of This Court And Other Courts
Of Appeals.
A. Monell Claims Must Satisfy Demanding
Fault and Causation Standards.

In a long line of cases stretching back to Monell
itself, this Court has repeatedly and emphatically held
that municipalities cannot be held liable under §1983

20
“unless action pursuant to official municipal policy of
some nature caused a constitutional tort.” Monell, 436
U.S. at 691; see also, e.g., Oklahoma City v. Tuttle, 471
U.S. 808, 818-19 (1985); Pembaur v. City of Cincinnati,
475 U.S. 469, 477-79 (1986); City of St. Louis v.
Praprotnik, 485 U.S. 112, 121-23 (1988); Canton, 489
U.S. at 385-92; Brown, 520 U.S. at 403-04; Los Angeles
Cty. v. Humphries, 562 U.S. 29, 35-36 (2010); Connick,
563 U.S. at 61-62. As those cases make clear, neither
respondeat superior nor “simple or even heightened
negligence will … suffice” in this context. Brown, 520
U.S. at 407. Instead, a municipality may be held liable
under §1983 only “if the governmental body itself
‘subjects’ a person to a deprivation of rights or ‘causes’
a person ‘to be subjected’ to such deprivation.”
Connick, 563 U.S. at 60 (quoting 42 U.S.C. §1983).
Far from marking an exception to that rule, this
Court’s failure-to-train cases exemplify it. While mere
negligence in training employees may suffice to hold a
municipality liable under state law, in a §1983 claim
it is not enough to prove “[t]hat a particular officer
may be unsatisfactorily trained,” or even “that an
injury or accident could have been avoided if an officer
had had better or more training.” Canton, 489 U.S. at
390-91. After all, “[i]n virtually every instance where
a person has had his or her constitutional rights
violated by a city employee, a §1983 plaintiff will be
able to point to something the city ‘could have done’ to
prevent” it. Id. at 392. To sustain a Monell claim on
that basis alone thus “would result in de facto
respondeat superior liability on municipalities—a
result [the Court] rejected in Monell.” Id. Equally
problematic, it would “engage the federal courts in an
endless exercise of second-guessing municipal

21
employee-training programs”—an exercise that they
“are ill suited to undertake” and “that would implicate
serious questions of federalism.” Id. Accordingly, only
when a municipality has a “policy of inaction” that “is
the functional equivalent of a decision by the city itself
to violate the Constitution” can a failure to train give
rise to municipal liability under §1983. Id. at 394-95
(O’Connor, J., concurring).
The “single-incident” theory of failure-to-train
liability is no less demanding. Indeed, it is little
surprise that this Court has yet to identify a viable
single-incident claim, for the theory is designed to
capture only exceedingly narrow circumstances—
namely, an abject failure to train employees what the
Constitution requires of them in situations that they
are very likely to face, even though it is “obvious” that
“the duties assigned to” them require specialized
training that they cannot otherwise be expected to
have. Canton, 489 U.S. at 390. Only then could the
need for the training in question be deemed “so
obvious” that the failure to provide it would amount to
deliberate indifference to constitutional rights.
Even then, moreover, a §1983 plaintiff still must
prove that the failure to train was “the moving force
[behind] the constitutional violation.” Id. at 389. For
“absent a requirement that the lack of training at
issue bears a very close causal connection to the
violation of constitutional rights, the failure to train
theory of municipal liability could impose
‘prophylactic’ duties on municipal governments only
remotely connected to underlying constitutional
requirements themselves.” Id. at 395 (O’Connor, J.,
concurring). Accordingly, when the unconstitutional

22
act “was almost certainly caused not by a failure to
give … specific training, but by” a “miscreant”
employee’s “willful” violation of that training, Monell
liability cannot attach. Connick, 563 U.S. at 76
(Scalia, J., concurring). After all, if an employee is
knowingly violating a clear and constitutional
municipal policy, then it cannot be said either that the
municipality failed to train on what the Constitution
requires or that the municipality’s policy caused the
violation.
B. The Decision Below Is a Stark Departure
from Decisions of this Court and Others.
The decision below breaks sharply from these
settled principles and from decisions of other circuits
that have faithfully followed them. Indeed, the
decision “stands alone, unaided by precedent” from
this Court or any other court, and “expands municipal
liability under §1983 beyond” recognition. App.44, 99
(Brennan, J., dissenting in part). Not only has no
other circuit “extended the single-incident exception to
the sexual assault context”; no other circuit has
applied the single-incident exception “when the
employee’s compliance with the municipality’s policy
and training would have prevented the injuries.”
App.99-100. To the contrary, courts across the
country—including the Fifth, Eighth, Ninth, Tenth,
and Eleventh Circuits—have repeatedly rejected
efforts to use the single-incident theory to fault a
municipality for failing to prevent an employee from
committing flagrant crimes.
In Flores v. County of Los Angeles, for example,
the Ninth Circuit rejected a single-incident claim
based on an alleged “failure properly to train deputy

23
sheriffs ‘to ensure that Sheriff’s [d]eputies do not
sexually assault women that [d]eputies come in
contact with.’” 758 F.3d 1154, 1156 (9th Cir. 2014)
(alterations in original). In doing so, the court
explained that, unlike “the constitutional constraints
o[n] the use of deadly force” Canton posited in its
hypothetical, “[t]here is … every reason to assume
that police academy applicants are familiar with the
criminal prohibition on sexual assault, as everyone is
presumed to know the law.” Id. at 1160. Accordingly,
the court rejected as a matter of law the theory “that
the unconstitutional consequences of failing to train
police officers not to commit sexual assault are so
patently obvious that the County” could be deemed
“deliberately indifferent” for failing to do so. Id.
The Tenth Circuit likewise has repeatedly
rejected single-incident claims premised on a failure
to prevent employees from committing flagrant
crimes. For instance, in Waller v. City & County of
Denver, 932 F.3d 1277 (10th Cir. 2019), the court
rejected a single-incident claim brought by a plaintiff
who was violently attacked by a deputy sheriff during
a court hearing with no provocation or warning of any
kind. As the court explained, “[t]his case does not
involve technical knowledge or ambiguous ‘gray areas’
in the law that would make it ‘highly predictable’ that
a deputy sheriff … would need ‘additional specified
training’ to … put [him] on notice that [he] may not
violently assault a restrained detainee.” Id. at 1288
(quoting Brown, 520 U.S. at 409 & Connick, 563 U.S.
at 71); see also, e.g., Barney, 143 F.3d at 1308 (“we are
not persuaded that a plainly obvious consequence of a
deficient training program would be the sexual assault
of inmates”).

24
The Eighth and Eleventh Circuits also have
repeatedly rejected efforts to use the single-incident
theory to hold municipalities liable for failing to
prevent employees from knowingly violating the law.
See, e.g., Parrish v. Ball, 594 F.3d 993, 999 (8th Cir.
2010) (rejecting single-incident claim because “it is not
so obvious that not” “tell[ing] officers not to sexually
assault detainees … would result in an officer actually
sexually assaulting a female detainee”); 1 Sewell v.
Town of Lake Hamilton, 117 F.3d 488, 489-90 (11th
Cir. 1997) (rejecting failure-to-train claim because
police officers need no special training to know they
should not “barter arrests for sexual favors”). 2
Unsurprisingly, courts have been just as hostile to
single-incident claims when, as here, they seek to hold
a municipality for blatantly criminal conduct that it
did train employees was prohibited. For example, in
Schneider v. City of Grand Junction Police
Department, the Tenth Circuit rejected a singleincident claim brought by a plaintiff who was raped by
See also, e.g., S.J. v. Kansas City Mo. Pub. Sch. Dist., 294 F.3d
1025, 1029 (8th Cir. 2002) (rejecting single-incident claim
because there is no patently obvious need for public schools to
train volunteers not to commit sexual abuse); Andrews v. Fowler,
98 F.3d 1069, 1077 (8th Cir. 1996) (rejecting single-incident claim
because there is no “patently obvious need for the city to
specifically train officers not to rape young women”).
1

See also, e.g., Floyd v. Waiters, 133 F.3d 786, 796 (11th Cir.
1998), vacated on other grounds by 525 U.S. 802 (1998),
reinstated by 171 F.3d 1264 (11th Cir. 1999) (rejecting effort to
hold board of education liable under §1983 for actions of security
guards who sexually harassed and raped students because board
was “entitled to rely on the common sense of its employees not to
engage in wicked and criminal conduct”).
2

25
the officer who responded to her 911 call. 717 F.3d
760, 774 (10th Cir. 2013). While the court observed
that “[s]pecific or extensive training hardly seems
necessary for” an officer “to know that sexually
assaulting [women] is inappropriate behavior,” it also
emphasized that the officer “was, in fact, instructed
against relationships with women he met on duty,”
and was “told … that it was unacceptable to engage in
sexual relationships with women whom he met
through his job.” Id. “Given that [the officer] acted in
violation of this direct warning,” the court refused to
hold the municipality liable on the theory that some
additional training “would have prevented the
assault.” Id.
The Fourth Circuit similarly rejected an effort to
hold a city liable under the single-incident theory
based on “an isolated incident of excessive force” when
the city “did have an aggression policy” that the
employee’s conduct violated. Estate of Jones by Jones
v. City of Martinsburg, 961 F.3d 661, 671-72 (4th Cir.
2020). As the court explained, “the City apparently
understood that it needed a use-of-force policy to avoid
the risk of likely constitutional violations, and it had
one.” Id. Because the plaintiff could not “prove that
any deficiency in training reflect[ed] a deliberate or
conscious choice by a municipality” to tolerate the use
of excessive force, the court concluded that the “City
cannot be liable under Monell.” Id. The Fifth Circuit
likewise has emphasized that the single-incident
theory should be “reserved for those cases in which the
government actor was provided no training
whatsoever,” not for claims that the training
employees did receive was inadequate. Peña v. City of
Rio Grande City, 879 F.3d 613, 624 (5th Cir. 2018).

26
As these and other decisions reflect, it is an
unfortunate reality that there are some people who
will violate the law no matter how clear it is or how
harsh the consequences. But, as courts repeatedly
have recognized, the single-incident theory is not a
tool for subjecting municipalities to quasi-negligence
or de facto respondeat superior liability whenever
someone in their employ proves to be one of those
people. Whether to impose liability on such standards
is a question that Congress reserved to state and local
governments that are closer and directly accountable
to the people. The single-incident theory simply
acknowledges the possibility of the rare case in which
a municipality fails to provide employees with any
training on how to answer constitutional questions
that it is both obvious they will confront and obvious
they are not equipped to answer without some sort of
specialized training. Whether it is permissible to use
lethal force to stop a fleeing suspect undoubtedly is
such a question. Whether it is permissible to rape an
inmate undoubtedly is not.
C. The Decision Below Is Wrong.
Under a correct application of the governing legal
principles, the decision below is plainly wrong. The
majority did not claim that Christensen’s actions were
the product of “a failure to equip [him] with specific
tools to handle” some specialized aspect of the task of
guarding female inmates. Brown, 520 U.S. at 409.
Nor could it have, for Christensen readily admitted at
trial that he had been trained that his conduct was
both criminal and a violation of jail policy, and that he
did not need any more training to understand that
what he was doing was illegal and wrong. App.14; see

27
also App.47, 105 (Brennan, J., dissenting in part).
And respondents’ own expert “conceded at trial that
no proof exists that better or more training could have
dissuaded Christensen from his predatory and
assaultive behavior.” App.105. That should have been
the end of the matter, for the County cannot have been
the cause of respondents’ constitutional injuries in the
“direct” sense that Monell liability requires when
there is no dispute that Christensen knew that he was
violating respondents’ rights in derogation of county
policy (not to mention state law).
The majority grounded its contrary conclusion in
an amalgam of theories, each as flawed as the next.
Indeed, the majority’s analysis succeeds only in
underscoring that the single-incident theory is a
complete misfit for cases in which the conduct in
question concededly was prohibited and the employee
concededly knew as much.
The majority first posited that it “was as obvious
as obvious could be” that “male guards would sexually
assault female inmates” even if they knew that doing
so is both prohibited and criminal, and even if there
was no pattern or practice of violations of that
prohibition. App.25-26. But the question is not
whether the County was on notice of the possibility
that someone could violate clear county policy. If that
were the question, then no §1983 plaintiff would ever
need to prove a pattern or practice of past violations,
for it is always “obvious” that there is at least some
risk that a prison guard, or a police officer, or a
teacher, or anyone else in a position of trust and power
may choose to abuse that position even though they
know full well that doing so will get them fired, and

28
could even land them in prison. The deliberateindifference standard demands something very
different—namely, a showing that the municipality is
on notice that its employees do not understand where
the constitutional line is, yet nonetheless chooses not
to train them. That is why every other circuit has
rejected a single-incident claim like this one out of
hand, for “[s]pecific or extensive training hardly seems
necessary for a jailer to know that sexually assaulting
inmates is inappropriate behavior.” Barney, 143 F.3d
at 1308; see also, e.g., Andrews, 98 F.3d at 1077
(finding no “patently obvious need for the city to
specifically train officers not to rape young women”).
The majority next faulted the County for failing to
put in place various policies established through
PREA, such as “designat[ing] a PREA coordinator,”
“train[ing] staff on what to look for and how to report
abuse as well as how to make inmates feel comfortable
coming forward,” or “provid[ing] a safe, confidential
way for inmates to report abuse (through, for example,
the use of a locked drop-box), instead of putting
inmates in the position of having to hand a grievance
to an officer who may be friends with the abuser.”
App.12. Again, that confuses “a want of compliance”
with “a want of comprehension” of what the
Constitution commands. App.40 (Easterbrook, J.,
dissenting in part). The single-incident theory is not
about whether there is more a municipality “could
have done to prevent,” or to train its employees how to
prevent, someone from violating the Constitution.
Canton, 489 U.S. at 392. It is about whether a
municipality “fail[ed] to equip [its employees] with
specific tools to” understand what the Constitution
commands. Brown, 520 U.S. at 409.

29
Here, “[a]ll agree that Polk County’s written
policies categorically prohibited sexual contact with
inmates,” App.19, and that everyone understood what
those policies meant. That should have foreclosed a
single-incident claim. Indeed, it is quite telling that
Judge Hamilton candidly acknowledged that the
majority’s decision had nothing to do with any failure
to train Christensen that his conduct was prohibited.
App.37.
It was instead based on the County’s
purported “failure to monitor its guards” or “to provide
effective channels for complaints so as to discourage
such abuse,” App.37—in other words, its failure to do
more to train others how to better detect or prevent
violations of clear county policy. That may be a
perfectly fine theory for a negligence claim, and may
be a standard to which States may choose to hold their
municipalities. But it is not a viable theory of liability
pursuant to a statute under which “local governments
are responsible only for ‘their own’” violations of the
Constitution. Connick, 563 U.S. at 60.
That is not to say that a written policy that
complies with the Constitution is an absolute shield
against Monell liability. But when the acts for which
the plaintiff seeks to hold a municipality liable plainly
and indisputably violated official policy, it is
incumbent upon the plaintiff to prove a pattern or
practice of past violations demonstrating either that
the de jure policy did not match the de facto one, or
that the municipality was deliberately indifferent to
an obvious need for additional training to ensure that
employees were aware of and understood that policy.
The single-incident theory is not an “alternative path,”
App.22, to impose quasi-negligence or respondentsuperior-style liability when no pattern or practice of

30
past violations put the municipality on notice of any
pervasive failure to understand or refusal to follow a
clear county policy.
Finally, to the extent the majority held that the
County was on notice that some deficiency in its clear
policy prohibiting sexual contact with inmates was
causing constitutional violations, that theory is legally
untenable too. The district court squarely held, and
the majority squarely agreed, that there was no “proof
of a prior pattern of similar constitutional violations”
in this case. App.22; App.181-82. 3 And rightly so, as
a single accusation of sexual harassment that was
markedly different from the assaults committed by
Christensen could not plausibly be deemed a “pattern
of similar constitutional violations.” See Connick, 563
U.S. at 62-65 (rejecting argument that four dissimilar
Brady violations put district attorney’s office “on
notice that specific training was necessary to avoid
this constitutional violation”). If a single violation of
a clear policy that did not rise to the level of a pattern
or practice nonetheless sufficed to make it “obvious”
under the single-incident theory that the policy was
constitutionally deficient, then the entire failure-totrain doctrine would be reduced to incoherency.

That readily distinguishes this case from Cash v. County of
Erie, 654 F.3d 324 (2d Cir. 2011), the principal case on which the
majority relied, see App.28, 30, for Cash was neither a singleincident nor even a failure-to-train case. See 654 F.3d at 336
(“[t]he deliberate indifference concern in this case, however, is
not with a failure to train”). At any rate, to the extent Cash
supports the majority’s decision, that would only heighten the
need for review to bring both the Second and the Seventh Circuits
back in line with this Court’s Monell jurisprudence.
3

31
In sum, the decision below stands alone for good
reason: It is profoundly wrong. As this Court has held
for more than 40 years, §1983 is not a vehicle for
holding municipalities liable for any and all
unconstitutional acts by their employees.
It is
reserved for cases in which a municipality’s own
actions are directly responsible for the constitutional
violation—e.g., unconstitutional policies (whether
official or de facto) or conscious failures to train
employees in the face of a known and serious risk of
constitutional violations. By allowing §1983 to be
used to hold a municipality liable for an employee’s
knowingly prohibited and knowingly criminal
violations of clear training and policy, the decision
below distorts Monell beyond recognition.
II. The Question Presented Is Exceptionally
Important.
The decision below has profound consequences,
both for municipalities and for federalism. Indeed, it
“open[s] municipalities to” exactly the kind of
“unprecedented liability under §1983” that this Court
has repeatedly construed the statute to avoid. Canton,
489 U.S. at 391. As Canton cautioned, “[i]n virtually
every instance where a person has had his or her
constitutional rights violated by a city employee, a
§1983 plaintiff will be able to point to something the
city ‘could have done’ to prevent” it. Id. at 392. A
standard that asked only whether the municipality
could have done more thus “would result in de facto
respondeat superior liability on municipalities.” Id.
That may be a perfectly valid policy for States to adopt
for imposing liability on their own cities and counties.
But it is not the standard for municipal liability under

32
§1983. Under §1983, a municipality may not be held
liable for the actions of its employees, or even for
negligent failure to better control the actions of its
employees. It may be held liable only for its own
constitutional violations.
That is no oversight. This Court has construed
§1983 in that manner to avoid the “serious questions
of federalism” that would arise under a standard that
allowed federal courts to “second-guess[]” everything
municipalities may do. Connick, 563 U.S. at 74
(Scalia, J., concurring). The rule “that a pattern of
constitutional violations is ordinarily necessary to
establish municipal culpability and causation” is
“indispensable” to that effort, for without it, “‘failure
to train’ would become a talismanic incantation
producing municipal liability” in virtually every case,
“thereby diminishing the autonomy of state and local
governments.” Id.
This case vividly illustrates the consequences of
allowing the single-incident theory to become the
exception that swallows that rule. The principal
deficiency the majority identified in the County’s
sexual assault policies was a failure to adopt certain
policies and practices established under PREA—a
federal statute that imposes no mandate on state or
local correctional facilities, and that Wisconsin has
chosen not to require its correctional facilities to
implement. See App.11-12, 19-21. Yet according to
the decision below, the County not only acted
unlawfully, but violated the Eighth Amendment, by
failing to follow these non-binding federal practices—
even though the majority conceded that there was no
pattern or practice of past violations resulting from

33
the failure to do so. In other words, the decision
declares it “obvious” that correctional facilities are
constitutionally compelled to adopt policies that
neither Congress nor state legislatures have seen fit
to impose—or at least are compelled to do so as long
as one correctional officer has ever been accused of any
type of sexual harassment. The decision thus converts
§1983 into a mechanism for “constitutionalizing …
requirements that States have themselves elected not
to impose.” Brown, 520 U.S. at 415.
While the decision below has particularly
profound consequences for the hundreds of prisons
and jails in the Seventh Circuit, nothing about the
majority’s reasoning is limited to the context of sexual
assault in correctional facilities. One could just as
easily declare it “obvious as obvious could be” that “the
power dynamic” between police officer and civilian, see
Schneider, Sewell, Parrish, or teacher and student, see
S.J., is so “imbalanced” as to be ripe for abuse by
someone willing to flout the law even at the risk of
losing both his job and his liberty. App.26. If that
were all it took to invoke the single-incident theory,
then it is difficult to see why a plaintiff would ever
bother trying to prove a pattern or practice of past
violations, for “deliberate indifference” could be
inferred any time there was anything more a
municipality could have done to try to prevent
someone from violating its crystal-clear policies
(which is to say in virtually every case).
None of that is to say that municipalities bear no
responsibility for ensuring that their employees
comply with the Constitution and the law at all times.
They undoubtedly do. But §1983 is not a “‘federal good

34
government act’ for municipalities,” Canton, 489 U.S.
at 396 (O’Connor, J., concurring), and it does not give
federal “courts carte blanche to micromanage local
governments throughout the United States,” Connick,
563 U.S. at 68. This Court has construed §1983 to
impose liability on municipalities only when their own
actions violate the Constitution. States are certainly
free to make different choices about the circumstances
in which municipalities may be held accountable for
the actions of their employees, and many have. But
the core lesson of Monell and its progeny is that the
bar for holding a municipality liable for violating the
Constitution under §1983 is a high one. It is not for
courts to lower that bar whenever they dislike the
outcome it produces. By doing so, the decision below
defies this Court’s precedent and subjects
municipalities to a sweeping form of liability that has
profound consequences for our constitutional system
of federalism.

35
CONCLUSION
For the foregoing reasons, this Court should grant
the petition.
Respectfully submitted,
PAUL D. CRANLEY
HUSCH
BLACKWELL LLP
33 East Main Street
Madison, WI 53703

ERIN E. MURPHY
Counsel of Record
LAUREN N. BEEBE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
erin.murphy@kirkland.com

ANDREW A. JONES
HANSEN
REYNOLDS LLC
301 N. Broadway
Suite 400
Milwaukee, WI 53202
Counsel for Petitioner
September 29, 2020

